<html>
<title> - LESSONS FROM THE STATES: RESPONSIBLE PRISON REFORM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       LESSONS FROM THE STATES: 

                       RESPONSIBLE PRISON REFORM
=======================================================================



                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,

                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2014

                               __________

                           Serial No. 113-108

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
88-721                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
SPENCER BACHUS, Alabama              Virginia
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TRENT FRANKS, Arizona                JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana

                     Caroline Lynch, Chief Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 15, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     2

                               WITNESSES

The Honorable Cam Ward, Chair, Prison Reform Task Force, Alabama 
  State Senate
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
The Honorable John E. Wetzel, Secretary, Pennsylvania Department 
  of Corrections
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
The Honorable Jerry Madden, former Chairman, Texas House 
  Corrections Committee, Senior Fellow for Right on Crime
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Nancy G. La Vigne, Ph.D., Director, Justice Policy Center, The 
  Urban Institute
  Oral Testimony.................................................    39
  Prepared Statement.............................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................     4
Prepared Statement of the Honorable Bob Goodlatte, Jr., a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................     4
Material submitted by the Honorable Jason Chaffetz, a 
  Representative in Congress from the State of Utah, and Member, 
  Committee on the Judiciary.....................................    62
H.R. 2656, the ``Public Safety Enhancement Act,'' submitted by 
  the Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah, and Member, Committee on the Judiciary......    69
Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, Homeland 
  Security, and Investigations.............................116<greek-l>
                      deg.OFFICIAL HEARING RECORD0
      Material Submitted for the Hearing Record but not Reprinted

Submission from The Urban Institute titled ``Stemming the Tide: 
    Strategies to Reduce the Growth and Cut the Cost of the Federal 
    Prison System.'' This material is available at the Subcommittee and 
    can also be accessed at:

    http://www.urban.org/uploadedpdf/412932-stemming-the-tide.pdf


                       LESSONS FROM THE STATES: 
                       RESPONSIBLE PRISON REFORM

                              ----------                              


                         TUESDAY, JULY 15, 2014

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2141, Rayburn House Office Building, the Honorable F. 
James Sensenbrenner, Jr. (Chairman of the Subcommittee) 
presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Coble, 
Forbes, Chaffetz, Gowdy, Labrador, Scott, Conyers, Bass, and 
Richmond.
    Staff Present: (Majority) Sarah Allen, Counsel; Alicia 
Church, Clerk; and (Minority) Ron LeGrand, Counsel.
    Mr. Sensenbrenner. Subcommittee will come to order, and, 
without objection, the Chair will be authorized to declare 
recesses of the Subcommittee at any time. Hearing none, so 
ordered. The Chair recognizes himself for 5 minutes for an 
opening statement.
    Since the 1980's, the Federal Bureau of Prisons has 
experienced a dramatic growth in its prison population. The 
number of inmates under the BOP's jurisdiction has increased 
from approximately 25,000 in fiscal 1980 to over 216,000 today. 
Since 1980, the Federal prison population has increased on 
average by approximately 5,900 inmates each year.
    The increasing number of Federal inmates contributes to 
overcrowding in the Federal prison system. Overall, the Federal 
prison system was 36 percent over its capacity in 2013. The 
problem, however, is particularly acute in high and medium 
security male facilities which operate at 52 percent and 45 
percent, respectively, over rated capacity. The inmate-to-staff 
ratio has increased from 4.1 inmates per staff member in 2000 
to 4.8 inmates per staff member last year.
    This overcrowding leads to inmate misconduct and creates 
safety issues for both inmates and corrections officers. To 
increase available bed space, wardens have resorted to double-
bunking and converting shared recreational space to house 
inmates, among other things. The overcrowding also affects the 
availability of rehabilitation programs for inmates, including 
substance abuse treatment. There should not be waiting lists 
for these key programs that help address recidivism.
    BOP's budget has similarly grown dramatically in recent 
years. Today, with an appropriation of more than $6.8 billion, 
the Federal prison system accounts for 25 percent of the 
Justice Department's budget. The cost to house each inmate has 
increased over time, going from $21,000 in fiscal year 2000 to 
$29,000 in fiscal 2013. This means that the cost of running 
Federal prisons will continue to increase quite dramatically 
even if no inmates, no new inmates, are added to the system.
    The Federal Government is not alone in facing an 
overburdened correctional system. The States have struggled 
with similar issues in recent years. While the number of prison 
inmates across the country has been slowly decreasing since 
2008, as of 2012 there were still over 2 million people 
incarcerated in prisons or jails nationwide, and the cost of 
incarceration has increased in the States. In 2012 alone, the 
States collectively spent more than $51 billion on corrections.
    Each of the States faces unique challenges that drive 
prison costs and overcrowding, but it is commonly accepted that 
high rates of recidivism greatly contribute to these problems 
on both the State and Federal levels. A number of States and 
localities have taken innovative approaches to managing prison 
growth and recidivism through the Justice Reinvestment 
Initiative, a program done in conjunction with the Justice 
Department and several nonprofit partners. Through this 
initiative, participating States and localities conduct a 
comprehensive analysis of the jurisdiction's criminal justice 
data to identify drivers of corrections, populations and costs, 
and help to adopt appropriate policy changes to address prison 
growth, recidivism, and cost controls without comprising public 
safety.
    The participating States are at various stages of the 
process, and broad reform cannot clearly happen overnight. 
However, a January 2014 report on the Justice Reinvestment 
Initiative found that the savings from implementing the 
initiative could save participating States as much as $4.6 
billion over 10 years by helping to ensure that fewer inmates 
endlessly cycle in and out of prison. This is encouraging news.
    Today we have before us a distinguished panel of witnesses 
to share how different States are tackling prison reform 
responsively and effectively, and hopefully how some of these 
reforms might be translated into the Federal system, and we are 
honored to have all of you here today.
    It is now my pleasure to recognize for his opening 
statement the Ranking Member of the Subcommittee, the gentleman 
from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, we have too many people in jails and prisons 
in America today. The Pew Center on States estimates that for 
any incarceration rate over 350 locked up today for every 
100,000 in population, the crime reduction value begins to 
diminish because at that point you certainly have all of the 
dangerous people locked up. Pew's research also tells us any 
rate above 500 locked up today for every 100,000 population, 
the rate becomes counterproductive, meaning that it generates 
more crime than it stops. That is because unnecessarily locking 
up people wastes money that could be put to better use, 
families are disrupted, making the next generation more likely 
to commit crimes, and too many people are suffering from the 
collateral consequences of felony convictions, making their 
legal job prospects dim.
    Most countries lock up between 50 and 200 per 100,000, but 
as a result of emotionally appealing tough-on-crime slogans and 
sound bites, the United States incarceration rate not only 
exceeds 500 per 100,000, it leads the world at over 700 per 
100,000 in jails and prison today. Research shows over 500 is 
counterproductive, and we are at 700 per 100,000, and some 
minority populations are locked up in the thousands.
    Furthermore, our correctional institutions fail to correct. 
More than 4 out of 10 adult American offenders are right back 
in prison within 3 years of their release. So it has become 
apparent to many policymakers that the status quo is not 
sustainable because of the crime policy, but certainly because 
of the expense. And as you pointed out, Mr. Chairman, we are 
wasting billions of dollars.
    This waste is particularly egregious because we know that 
alternatives can reduce crime and save money. These 
alternatives include so-called back-end solutions, 
appropriately dealing with people who have committed crimes, 
and front-end solutions, evidence-based prevention and early 
intervention programs which can avoid crime being committed in 
the first place.
    The back-end solutions include drug courts and alternatives 
to incarceration, such as home monitoring, which are less 
expensive than incarceration and more effective in reducing 
recidivism; and in sentencing, eliminating mandatory minimum 
sentences and other excessively long sentences. Mandatory 
minimums have been studied and shown not only to waste money, 
but also do nothing to reduce crime. And rehabilitation 
programs, such as drug treatment, education, job readiness in 
prisons, all have been proven to effectively reduce crime and 
most save more money than they cost.
    At today's hearing we will focus on what can be done on the 
back end, that is after a person is convicted, but we should 
also not ignore the cost-effective initiatives that get young 
people out of what the Children's Defense Fund calls the 
cradle-to-prison pipeline and into a cradle-to-college-and-
career pipeline with comprehensive, evidence-based, locally 
tailored strategies which significantly reduce crime and save 
money.
    So I look forward to the testimony of our witnesses, all of 
whom have made significant progress in solving the problem, not 
only by reducing crime, but also saving money, and then 
reinvesting that money into initiatives that will reduce crime 
even more and save even more money.
    I also look forward, Mr. Chairman, to working with you in 
dealing with cost-effective, evidence-based strategies that 
can, in fact, reduce crime and save money. And I yield back the 
balance of my time.
    Mr. Sensenbrenner. Thank you.
    Let me introduce our witnesses. Before doing that, without 
objection all Members' opening statements will be placed in the 
record at this point.
    [The prepared statement of Mr. Sensenbrenner follows:]
  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations
    Since the 1980s, the federal Bureau of Prisons has experienced a 
dramatic growth in its prison population. The number of inmates under 
BOP's jurisdiction has increased from approximately 25,000 in fiscal 
year 1980 to over 216,000 today. Since 1980, the federal prison 
population has increased, on average, by approximately 5,900 inmates 
each year.
    The increasing number of federal inmates contributes to 
overcrowding in the federal prison system. Overall, the federal prison 
system was 36 percent over its capacity in 2013. The problem, however, 
is particularly acute in high- and medium-security male facilities, 
which operate at 52 percent and 45 percent, respectively, over rated 
capacity. The inmate-to-staff ratio has also increased from 4.1 inmates 
per staff member in 2000 to 4.8 inmates per staff member in 2013.
    This overcrowding leads to inmate misconduct, and creates safety 
issues for both inmates and corrections officers. To increase available 
bed space, wardens have resorted to double bunking and converting 
shared recreational space to house inmates, among other things. 
Overcrowding also affects the availability of rehabilitation programs 
for inmates, including substance abuse treatment. There should not be 
waiting lists for these key programs that help to address recidivism.
    BOP's budget has similarly grown dramatically in recent years. 
Today, with an appropriation of more than $6.8 billion, the federal 
prison system accounts for 25 percent of the Justice Department's 
budget. The cost to house each inmate has also increased over time, 
going from $21,000 in fiscal year 2000 to $29,000 in fiscal year 2013. 
This means that the cost of running the federal prisons will continue 
to increase quite dramatically even if no new inmates are added to the 
system.
    The federal government is not alone in facing an overburdened 
correctional system. The states have struggled with similar issues in 
recent years. While the number of prison inmates across the country has 
been slowly decreasing since 2008, as of 2012, there were still over 2 
million people incarcerated in prisons and jails nationwide. And the 
costs of incarceration have increased in the states--in 2012 alone, the 
states collectively spent more than $51 billion on corrections.
    Each of the states faces unique challenges that drive prison costs 
and overcrowding, but it is commonly accepted that high rates of 
recidivism greatly contribute to these problems on both the state and 
federal levels.
    A number of states and localities have taken innovative approaches 
to managing prison growth and recidivism through the Justice 
Reinvestment Initiative, a program done in conjunction with the Justice 
Department and several non-profit partners. Through this initiative, 
participating states and localities conduct a comprehensive analysis of 
the jurisdiction's criminal justice data, identify drivers of 
corrections populations and costs, and help to adopt appropriate policy 
changes to address prison growth, recidivism, and cost controls without 
compromising public safety.
    The participating states are at varying stages of the process and 
broad reform clearly cannot happen overnight. However, a January 2014 
report on the Justice Reinvestment Initiative found that the savings 
from implementing the initiative could save the participating states as 
much as $4.6 billion over ten years by helping to ensure that fewer 
inmates endlessly cycle in and out of prison. This is encouraging news.
    Today we have before us a distinguished panel of witnesses to share 
how different states are tackling prison reform responsibly and 
effectively, and hopefully how some of these reforms might be 
translated to the federal system. We are honored to have you all here 
today.
                               __________

    [The prepared statement of Mr. Goodlatte follows:]
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    Thank you, Chairman Sensenbrenner. I am very pleased to be here 
today to discuss the important issue of prison reform. With more than 2 
million people and growing in prison in the United States, and state 
and federal budgets straining to support their corrections systems, 
this is a topic that deserves close review.
    So much of the recent attention to the U.S. prison population has 
focused on sentencing practices, particularly for drug crimes. This 
focus, however, completely ignores a critical piece of the puzzle--what 
happens in our prisons and upon release to help stop the endless cycle 
of criminality that is a significant contributing factor toward our 
prison overcrowding.''
    In April of this year, the U.S. Justice Department released 
shocking numbers on the rate of recidivism in this country. According 
to a study on prisoners in 30 states, more than two-thirds of released 
prisoners were arrested for a new crime within three years of release, 
and more than 75 percent were rearrested within five years.
    The study also found that more than half of these prisoners were 
arrested within one year of leaving prison, and that just one-sixth of 
the released prisoners were responsible for nearly half the 1.2 million 
arrests in the study's five-year period.
    These shocking numbers send the message loud and clear--our prison 
systems, including post-release supervision, are not succeeding at the 
critical task of rehabilitating offenders.
    So often, we in Congress think that the best way to effectuate 
change is for the federal government to impose its will on the States. 
I disagree with that approach--particularly on the issue of prison 
reform. When it comes to reforming prison systems responsibly and 
effectively, the states are acting as true ``laboratories of 
democracy.'' Through the Justice Reinvestment Initiative and other 
efforts, a number of states are using data-driven analyses to find ways 
to reduce recidivism and manage their prison populations in a more 
cost-effective manner, without compromising public safety.
    I commend the three states represented here today for their efforts 
in this area, as well as the many others that are engaged in meaningful 
prison reform, and look forward to hearing about whether the lessons 
they have learned might be applied at the federal level.
    Thank you and I yield back the balance of my time.
                               __________

    Mr. Sensenbrenner. The first witness is the Honorable Cam 
Ward, who is an Alabama State senator, first elected in 2010. 
In his first term as State senator, he was appointed as Chair 
of the Senate Judiciary Committee. Mr. Ward chairs the Joint 
Legislative Prison Committee and is chairman of the Alabama 
Prison Reform Task Force created in 2014 during its legislative 
session to study prison overcrowding. Mr. Ward also served two 
terms in the Alabama House of Representatives. He was 
previously appointed deputy attorney general for the State of 
Alabama, worked as an assistant secretary of state, where he 
dealt with election laws and corporate filings, and was also a 
district director for Congressman Spencer Bachus, who is a 
Member of the Subcommittee. He received his bachelor's degree 
from Troy University and his juris doctorate from the 
Cumberland School of Law.
    The Honorable John E. Wetzel is the secretary of 
corrections for the Commonwealth of Pennsylvania. Since his 
appointment in 2010, Mr. Wetzel has presided over the first 
population reduction in Pennsylvania in over four decades. 
Additionally, he has overseen the restructuring of the 
community corrections system, the mental health system, and a 
reengineering of internal processes to yield a more efficient 
system of program delivery.
    He began his career in Lebanon County as a correction 
officer, treatment supervisor, and training academy director. 
He also served a 9-year tenure as warden of the Franklin County 
jail. Under his leadership, Franklin County saw a 20 percent 
reduction in its population while the crime rate declined. He 
was then appointed to the Pennsylvania Board of Pardons as the 
board's correction expert. He is a member of Harvard's 
Executive Session on Community Corrections, which is a joint 
project of Harvard's John F. Kennedy School of Government and 
the National Institute of Justice. He received his bachelor of 
arts from Bloomsburg University and has done master's level 
coursework in applied psychology at Penn State University.
    Mr. Jerry Madden has served 10 terms in the Texas 
legislature where he has served as chairman of the Committee on 
Corrections, as well as a member of the Judiciary and Civil 
Jurisprudence Committee. He headed Texas' 2007 criminal justice 
system reforms legislative initiative, which sought to divert 
individuals from prison through mental health and substance 
abuse treatment programs, provide more opportunities in prison 
for rehabilitation, and properly utilize probation and parole 
mechanisms to avoid greater costs if new prisons were built.
    In 2010, he was appointed to serve on the Texas State 
Council for Interstate Adult Offender Supervision and was named 
co-chair of the National Conference of State Legislatures' 
Sentencing and Corrections Work Group. After completing his 
legislative career in 2013, Mr. Madden was named a senior 
fellow for the Right on Crime at the Texas Public Policy 
Foundation, where he serves today. He received his bachelor's 
degree from the West Point Academy and his master of science 
degree from the University of Texas at Dallas.
    Dr. Nancy C. La Vigne, and I probably mispronounced it.
    Ms. La Vigne. It is La Vigne.
    Mr. Sensenbrenner. La Vigne. Okay. Is director of the 
Justice Policy Center at the Urban Institute, where she 
oversees a research portfolio of projects spanning a wide 
variety of crime, justice, and public safety topics. Before 
being appointed as director, Dr. La Vigne served as a senior 
research associate at the Urban Institute directing research on 
prisoner reentry, crime prevention, and the evaluation of 
criminal justice technologies.
    Prior to joining the Urban Institute, Dr. La Vigne was the 
founding director at the Crime Mapping Research Center at the 
National Institute of Justice. She later served as special 
assistant to the assistant attorney general for the Office of 
Justice Programs within DOJ. She has also held positions as 
research director for the Texas Sentencing Commission, research 
fellow at the Police Executive Research Forum, and consultant 
to the National Council on Crime and Delinquency. Dr. La Vigne 
received her bachelor's degree from Smith College, her master's 
degree from the LBJ School of Public Affairs at the University 
of Texas at Austin, and her doctorate from the State University 
of New Jersey.
    We ask that all of you limit your comments to 5 minutes. I 
think you know what the red, yellow, and green lights mean. And 
without objection, all of your written statements will be 
placed in the record prior to your testimony.
    Senator Ward, you are first.

          TESTIMONY OF THE HONORABLE CAM WARD, CHAIR, 
         PRISON REFORM TASK FORCE, ALABAMA STATE SENATE

    Mr. Ward. Mr. Chairman, Members of the Committee, thank you 
for giving me the opportunity to address you today on a very 
serious issue that is facing Alabama. My comments come from a 
unique position that my State would be what you would call a 
failed correction system. However, these challenges have forced 
us to take advantage of many opportunities that we know are 
proven and available to us if we have the political will and 
courage to take them on.
    We have the highest incarceration in the United States 
today. At 192 percent, our prison system is more overcrowded 
than almost any other country in the world. But we also have 
the eighth highest crime rate. That tells us one thing: Locking 
them up and throwing away the key is not a solution to our 
problem.
    In order to reach a capacity of 137 percent overcrowding, 
we would have to spend nearly $600 million to build our way out 
of this problem. That would be over half of our entire general 
fund for the State of Alabama. Not only is that not feasible, 
that is fiscally irresponsible and morally unacceptable. Today 
in Alabama we spend $42.50 a day per inmate that we put in 
incarceration. In order to reach the same level of our 
neighbors of Florida and Georgia, we would have increase 
spending per inmate by 20 percent. Due to the recession and 
other fiscal restraints, that is just not feasible either.
    So what do we do? In my 12 years of public service, I can 
tell you, I have rarely seen an issue that generates more 
bipartisan support than this particular issue does. Faced with 
this problem, a bipartisan effort was initiated this past 
spring, launched with the Justice Reinvestment Initiative in 
Alabama.
    This spring, the legislature created the Alabama Prison 
Task Force, and the leaders of all three branches of government 
came together--which is rare by the way--to support this 25-
member coalition to bring about new changes in Alabama's prison 
system. Governor Bentley named me chairman of this group, and 
immediately we went about creating a diverse organization that 
both includes prosecutors, victims rights advocates, as well as 
inmates' rights advocates.
    This group has started working, and right away we have seen 
what other States have done that can make a true difference in 
Alabama. Recent States that have taken on the Justice Reform 
Initiative have seen a drop by nearly 8 percent of their prison 
population with almost no crime increases.
    Over the years, Alabama, like many States, have passed 
enhanced sentences for different crimes. We have limited parole 
for nonviolent offenders and refused to amend or update our 
Habitual Offender Act. This has created the problem we are in 
today. We have stuck our head in the sand and act like it 
didn't exist when every day it was right there in front of us. 
We no longer have that opportunity.
    However, there is a road map forward that shows what we can 
do to fix this problem. There has been proven success stories, 
and there are several examples of what we can do. For example, 
our disjointed sentencing guidelines have varied greatly 
between circuits and counties. The Sentencing Commission, 
created very similar to what you have on the Federal level in 
Alabama in 2000, has come up with a model for presumptive 
guidelines that will now make sure there is more uniformity in 
how sentencing is carried out. We have had more data-sharing 
opportunities between the various criminal justice 
organizations in Alabama to show which criminals or which 
offenders should be put in for a longer period of time, which 
should be released earlier, and which may be qualified for 
alternative sentencing programs.
    At the end of the day, though, as I tell my colleagues 
every day, money is not going to be the solution alone. There 
has to be alternative sentencing programs available for the 
people of Alabama. Community corrections, which helps reduce 
recidivism and increase the productivity of an inmate once they 
leave the custody of the State system, drug courts, mental 
health courts, and now veterans courts offer us an opportunity 
to not only reduce recidivism, but do it for a third of the 
cost.
    Community corrections in Alabama exist in 48 counties. My 
goal would be to expand that to all 67 counties, make it a 
uniform process. Currently, today 3,700 inmates who would be 
prison-bound are currently in community correction programs. 
What is the difference? In community corrections, we spend 
$11.50 a day. To put someone in prison, as I mentioned before, 
is $42.50 a day. Community corrections is the way forward. 
Using that program has shown to reduce recidivism greatly.
    Finally, while no one likes to talk about prison education, 
it is a must. We must have more prison education programs. 
While this is not politically popular due to the cost, it is 
shown to reduce recidivism rates by 43 percent in Alabama. We 
must invest more in these programs.
    Finally, drug courts and mental health courts are the key 
to success. Over 56 percent of all inmates have some sort of 
mental health disorder, and of those, 75 percent have some sort 
of substance abuse addiction. We have to fix those problems. 
This is not a politically popular issue, but it is one that 
Republicans and Democrats should stand together alike and try 
our best to fix.
    I look forward to your questions, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Ward follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Sensenbrenner. Thank you very much, Senator.
    Secretary Wetzel.

     TESTIMONY OF THE HONORABLE JOHN E. WETZEL, SECRETARY, 
             PENNSYLVANIA DEPARTMENT OF CORRECTIONS

    Mr. Wetzel. Thank you. Thank you for the invite, Mr. 
Chairman and Members, and thank you for allowing me to come and 
talk a little bit about what Pennsylvania has done over the 
past 3\1/2\ years to really improve our correction system and 
criminal justice system as a whole.
    The first thing I would absolutely encourage, and I believe 
is an imperative as we talk about this issue, to really start 
at what we have common ground on. And I think what we can all 
agree on, it doesn't matter what room I am in, and, you know, 
in this business of politics, there is rarely anything that we 
can all agree on, but the one thing that we can all agree on is 
what we want out of our correction system. And what we want is 
that when someone comes in the front end of the system, when 
they get out of the back end of the system they are at least 
not worse. I mean, it is just that simple.
    So if you start with that, and you start with what I would 
call the prime directive, and the prime directive is every 
decision we make will be a decision that research indicates is 
likely to have the best outcome, and if you sprinkle that 
throughout the whole system, starting at the front end, then 
you can't go wrong. And in this environment where in 
Pennsylvania our budget is $2 billion, we are the third line 
item in the State general fund spending, and I know that 
because I hear it every place I go, right, so if we are going 
to spend that much money, let's make sure we spend it well.
    And so when you start at the front end of the system, and I 
know the focus of this discussion is what we can do in the back 
end, but you can't talk about the back end without talking 
about the front end. And if you are not assessing risk when an 
individual first comes in the system, I don't know how you make 
a decision, I don't know how you reach that goal of having 
better outcomes.
    So when we talk a lot about risk assessment, think of it in 
context of diagnosis. Right? So if I went to a doctor and said 
I am not sure what is going on and told him my symptoms and he 
said, oh, you have cancer, I would say, well, hold on, you are 
going to do some tests, right? That is what you should be 
saying to me. Hold on. What do you mean this person has to get 
sent to a State prison or Federal prison. You are going to do 
some tests. Right? You are going to see if that decision is the 
decision most likely to get the best outcome, which is someone 
would be less likely to commit crime.
    And so that risk assessment or diagnosis needs to also 
understand what the root cause of the crime is. And if it is 
addiction, provide programming for addiction, because you can 
put an addict in prison for 10 years, they are going to come 
out the back end an addict if you don't address that. So that 
is not a good return on investment from that approach. Or if 
they are mentally ill and we don't address the mental illness, 
that is not a good return on investment because they are going 
to commit another crime. And again, keep in mind outcomes.
    So what can we do on the back end? And really when you 
focus on the back end, think of it in context of what barriers 
remain for the individual to be successful when they get out. 
And so what we did is we looked at, first of all, really simple 
things. Like in 2008 we released 20,000 offenders and we 
released 300 offenders with an ID. Now, what can you do without 
an ID in this country today? Not much, right? And when you talk 
about does it make sense to buy an offender an ID, they were 
spending an extra 2 weeks in a halfway house because they 
didn't have an ID, at $70 a day.
    So we put an initiative forward. Last year we released 
9,000 inmates, up from 300, with IDs, but it is 9,000 out of 
20,000. So we are not bragging too much because we should be 
closer to 20,000 out of 20,000. But it is just those simple 
things.
    So what are other barriers? The other big thing we did, and 
probably the most impactful thing we did, is we performance 
contract our halfway house. So we had a study done in 2009 by 
University of Cincinnati, and they found that 95 percent of our 
programs were failing. In other words, if I were to release an 
offender directly on the street, they would be likely have a 
lower recidivism rate than if we put them through a halfway 
house. And for these great outcomes, we were spending $110 
million.
    So we gutted the whole system, we rebid all the contracts, 
and we put performance measures in the contracts. So earlier on 
in our administration, we did a baseline recidivism study, and 
we used that baseline to say to the providers at halfway house 
services, listen, when we send offenders through your center, 
we want you to do A, B, C, and D. But that is all well and 
good. When they come out, they better have a lower recidivism 
rate or at least not a higher one. If they have a lower 
recidivism rate, you get a 1 percent increase at the end of the 
year. If you keep it within one standard deviation above or 
below the baseline recidivism rate, you continue in good 
standing. If it is increased, you get one 6-month warning, then 
we fire you. And if it is a state-run center, we close you.
    So the theme here is it is okay to expect outcomes. And, 
frankly, for the investment we are doing, we should expect 
outcomes from our system. Thank you.
    [The prepared statement of Mr. Wetzel follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Sensenbrenner. Thank you very much, Secretary.
    Representative Madden.

TESTIMONY OF THE HONORABLE JERRY MADDEN, FORMER CHAIRMAN, TEXAS 
 HOUSE CORRECTIONS COMMITTEE, SENIOR FELLOW FOR RIGHT ON CRIME

    Mr. Madden. Thank you, Mr. Chairman, Members. My name is 
Jerry Madden. I served 20 years in the Texas legislature. I am 
not a lawyer, never was on a corrections or criminal justice 
committee, and never had a bill on correction matters until 
early in my 13th year when our conservative speaker, Tom 
Craddick, called me into his office in January 2005 and told 
me, you are going to be chairman of corrections.
    Of course I thanked him, as in my mind I am thinking, oh, 
God, why me? What did I do to deserve this? Then I asked him 
the second most important question in my life. I asked him, Mr. 
Speaker, what do you want me to do? And he gave me the eight 
words that changed my life. He said, don't build new prisons, 
they cost too much. Mission, guys, mission.
    These are the words that led to Texas' reform. I am an 
engineer and West Point grad and I worked through the problem 
like a military engineer would work through it. First started 
by trying to find out who in the Texas legislature knew 
anything about corrections. There were not very many. I know 
that would surprise all of you here. You wouldn't have them 
either. But my friends directed me to the dean of the Texas 
Senate and the criminal justice chairman, a Democrat named John 
Whitmire. I went to him with my charge. And in about a 2-hour 
meeting we meshed perfectly.
    Now, I knew John, but I never had worked on legislation 
with him. But it was a bipartisan beginning of our team. We 
looked at the projections of expanded prison population and 
determined first we did not want to violate prior court 
directives on overcrowding. So we had two choices: either to 
let people out early or to slow the rate of people coming in. 
Guess which would not fly in tough-on-crime Texas?
    So we went after and looked at how do you break the cycle 
of people coming into prison. We always put public safety 
first, but we had people telling us that with added resources 
there were many convicted individuals we could safely keep in 
our community.
    We tried a bill in 2005 to work on probation and passed it 
through the legislature, but it was vetoed by the governor. 
Best thing that ever happened to us. Forced us to go back and 
rework our efforts, to bring in a lot more people to look at 
probation and the reasons for the veto. We looked at programs 
that were available in Texas prison, on parole, on probation in 
the courts, and in our juvenile system. We brought in 
statistical help to tell us, if we changed our supplemental 
programs, what would happen to our recidivism rate.
    In late 2006, our Legislative Budget Board came out with a 
prediction that we would have 17,700 more prisoners in Texas by 
the year 2012 and we would need to build three prisons in the 
2007-2008 biennium, costing over $530 million. Our plan was 
ready at that time and would keep our prison population stable, 
according to our data, and would cost less than half of the new 
prisons. We went to the governor and legislative leaders with 
our plan and were given the go-ahead.
    This is what we did. We added substance abuse treatment 
beds in prison on parole and probation. We added intermediate 
sanction beds for parole and probation. We expanded specialty 
courts, put more funding for mental health treatment for the 
prisoners. We also brought back 1,800 prisoners that we had 
sent out to the county jails. All of these ideas and others 
were accepted.
    And what are our results? Crime rates have continued to 
drop to levels not seen since the 1960's. Arrest rates in Texas 
are down. Three prisons and six juvenile facilities are 
permanently closed. Significantly fewer people are on felony 
probation. The parole rates in Texas rose from 24 percent the 
years we started to 36 percent last year, and the parole 
revocations dropped from almost 11,000 a year in 2005 to less 
than 5,900 last year.
    Our prison population is the same as it was in 2007, and 
LBB last week predicted we would not need to build new prisons 
until 2019. Our juvenile populations have fallen from over 
4,500 to under 1,300. Our State savings are over $2.2 billion 
as of today and growing.
    An equally important offspring of our efforts is at the 
national level where the Texas Public Policy Foundation in 2010 
created Right on Crime, the national conservative voice for 
criminal justice reform. These and steps by organizations like 
CSG, Pew, NCSL, and ALEC have taken our work as an example for 
reforms throughout the State.
    I have been asked to give some guidance from Texas on what 
would help the Federal prisons in correction reform. Our system 
is the State system that is closest in size to your Federal 
system. We did our work in a bipartisan manner in an area where 
even at the Federal level today there is hope reform ideas can 
be bipartisan. We have the examples of the States that have now 
done reforms in this manner. Pennsylvania, Georgia, Kentucky, 
Alaska, South Dakota, Idaho, and Texas legislatures passed 
their major reform packages with overwhelming support from both 
parties.
    In each of the States there are think tanks, organizations, 
and individuals with a great deal of knowledge and numerous 
ideas about what can be done. In Washington there are even more 
people who would be willing to work together for positive 
reform. You already have legislators from both parties and both 
chambers presenting legislation that can be used for 
improvements, and most of them are based off the ideas we 
started in Texas.
    Also, there are now evidence-based practices to give 
direction to policymakers about programs that work and those 
that do not. Evidence-based practices should be required for 
all of those. We have several recommendations Right on Crime 
made. I will leave them there in the documentations that we 
have.
    [The prepared statement of Mr. Madden follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Sensenbrenner. Thank you very much, Representative.
    Doctor.

TESTIMONY OF NANCY G. LA VIGNE, Ph.D., DIRECTOR, JUSTICE POLICY 
                  CENTER, THE URBAN INSTITUTE

    Ms. La Vigne. Hi. Good morning. Thanks very much for the 
opportunity to speak with you today and to testify alongside 
these gentlemen who have really demonstrated what engaging in 
responsible prison reform on the ground means and also engaging 
in evidence-based practice. You are kind of living what the 
Urban Institute promotes through its own research on what 
works. So I thank you for that.
    Since you have heard about the successes in the States 
already I don't want to belabor the point too much, but I would 
like to refer you to this publication that the Chairman 
referenced in his opening remarks, and that is a report the 
Urban Institute did assessing the Justice Reinvestment 
Initiative looking at 17 States. It documents the sweeping 
reforms that the States have engaged in and the projected 
impact of those reforms.
    That report was released earlier this year, but a few 
months prior to that the Urban Institute released a report 
called ``Stemming the Tide.'' In this report we looked at the 
growth in the Federal system, the drivers of the growth in that 
system, and a variety of policy changes and the impacts that 
those changes would have, both on population and cost. So what 
I would like to do today is to describe that a bit and then 
talk about lessons learned from the States and how it can be 
applied to the Federal system.
    As we know, the Federal system mirrors the experiences of 
the States in terms of growth in many ways, although arguably 
more so compared to many States experiencing a nearly eightfold 
increase since 1980. That growth has caused severe 
overcrowding, between 30 to 50 percent, depending on the 
facility, much higher for the high-security facilities across 
the BOP.
    BOP's budget has been increasing alongside that population 
growth. It is crowding out other important public safety 
priorities. The BOP budget has grown at twice the rate of the 
DOJ budget over time, and yet those budget increases aren't 
sufficient to maintain staffing. Inmate-to-staff ratios have 
increased 20 percent since 2000. All of this creates a scenario 
where you have serious overcrowding that poses a threat to 
public safety. It poses a threat to safety on the inside, the 
safety and security of the staff and the inmates who reside 
there.
    But it is also a threat to public safety on the outside 
because when facilities are crowded you can't offer the 
programming and treatment necessary to prevent recidivism, so 
if you can't prevent recidivism you are causing more 
victimization in the community.
    In this report we document the drivers of the growth in the 
Federal system. It is basically simple math, more people going 
into prison, staying for longer periods of time. By far drug 
offenders are the biggest fear of the growth in the system, and 
this is the population that would yield the biggest impact on 
any efforts to reduce or slow that growth.
    Many solutions have been tested and proven by the States. 
They are documented here, and we have heard from the prior 
witnesses about them. States have slowed prison growth. They 
have reduced overcrowding. They have saved taxpayers money in 
the process. And according to a recent Pew Charitable Trust 
report, these States have experienced declines in the crime 
rate alongside the States that have not engaged in reform.
    So what lessons are transferable to the Federal system? I 
think it is first important to note that there are differences 
in the system. The Federal system has a different population, 
much less violent on average than most State prison 
populations. It is also the case that the Federal prison isn't 
driven by supervision violators, as we see a lot in the States.
    And yet there are reforms that are transferable, and these 
are both front-end reforms, as we call them, and back-end 
reforms. By front-end reforms, I am referring to changes in 
sentencing policies, who goes to prison, how long is their 
sentence length. And by back-end, I am talking about earned 
credit mechanisms that encourage program participation and good 
behavior. And I don't have to tell this Committee much about 
those reforms because many of you have signed on to legislation 
that promotes those reforms on the Federal level, the Smarter 
Sentencing Act, the Justice Safety Valve Act, the Public Safety 
Enhancement Act. These acts are looking at both front-end and 
back-end changes, including reducing mandatory minimums, 
expanding the safety valve, expanding judicial discretion in a 
number of ways, and incentivizing inmates to participate in 
programs and treatments that they can benefit from.
    It is also important to acknowledge that there is another 
kind of front end, and that is embodied in evidence-based 
practice that looks at the importance of prevention, education, 
and employment even prior to someone entering the system to 
encourage them to avoid that altogether.
    Thank you for your time.
    [The prepared statement of Ms. La Vigne follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Sensenbrenner. Thank you very much, Doctor.
    The Chair will withhold his questions till the end. The 
gentleman from North Carolina, Mr. Coble, is recognized for 5 
minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you all with us today.
    Senator Ward, Alabama has just passed a statute authorizing 
the Alabama Prison Reform Task Force at an earlier stage in the 
Justice Reinvestment Initiative process with other States. Are 
there certain States that you are looking for to serve as 
leaders in this model, and what reforms do you think have been 
most effective in those States?
    Mr. Ward. Congressman, I would say, first and foremost, I 
look to my friend Representative Madden down here from Texas. I 
think they are the model probably for reforms across the 
country. As I have said before, there is really no silver 
bullet answer to the question of what is going to solve the 
prison problem. I think that the answer comes about in many 
facets. Most importantly, as I said before, one, your community 
corrections program; two, drug courts; and, three, mental 
health courts. All those provide tools not only for the front 
end, before incarceration has to occur, but also on the back 
end, and reduces recidivism rate and is also cheaper on the 
taxpayers.
    I think the more that we utilize those programs, the less 
you are going to have a turnaround of someone coming back into 
the system, and that is the key for everyone. If you can reduce 
recidivism, in the long run you will reduce your prison 
population. I think Texas has been a model reform for that. 
Most recently other States have also adopted it, prison 
ministry work in Georgia. We have seen also a new pardon and 
parole data-sharing process in Mississippi which has been very 
successful. Also, community correction incentives, where 
incentives are given to community correction programs that show 
a higher reduction in recidivism rates. Then the financial 
reward for those programs are rewarded through the budget 
process, as they are doing in Arkansas.
    So there are a large number of options out there. However, 
I would have to point to Texas being the model for the rest of 
the country, and it is due to the Justice Reinvestment 
Initiative.
    Mr. Coble. Thank you, Senator.
    Each of you I think mentioned the enormous cost involved. 
If these reform programs result as hoped would be the case, it 
seems to me that savings could be realized. Am I missing the 
mark when I say that?
    Mr. Ward. Not at all.
    Mr. Madden. Not at all.
    Mr. Coble. I mean, recidivism and overcrowding are two 
issues that continue to plague us, and they are obviously 
related.
    Doctor, does the BOP currently perform a risk assessment of 
its inmates for purposes of administering recidivism-reducing 
programs or determining the likelihood to re-offend.
    Ms. La Vigne. My understanding is that the BOP does use 
risk in these assessments for some purposes. I don't know the 
details of how they are used to guide who gets what types of 
programs or treatment.
    Mr. Coble. Anybody else want to weigh in on that?
    Mr. Madden. I was just going to weigh in on your previous 
question about States that are examples, though.
    Mr. Coble. Fire away.
    Mr. Madden. I will follow on that because North Carolina 
did some wonderful work also in their things, and they are an 
example that I use nationally when talking to States about what 
they did in their technology aspects for their probation and 
parole divisions. They really have done some creative work 
there that has caused a reduction in their prison populations 
also.
    Mr. Coble. On that, your favorable note to my home State is 
appreciated.
    And I yield back, Mr. Chairman.
    Mr. Madden. I was honored, as a matter of fact, to be there 
when the governor and the speaker and your senate pro tem 
leader decided to go ahead and start that. I was actually in 
the room with them at that time, about five of us.
    Mr. Coble. And I will convey that when I go back home. 
Thank you, sir. Thank you all for being here.
    Mr. Sensenbrenner. Gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, one of the themes we have heard from all of 
the witnesses is a reliance on research and data rather than 
slogans and sound bites.
    Senator Ward, can you say a word about the applied research 
service and what they do for you?
    Mr. Ward. Yeah, absolutely. The problem with corrections 
traditionally has been the policymakers, you and I. We take it 
upon ourselves what sounds good, as you said, the policy sound 
bites. Can I lock them up and throw away the key because it 
fits on a bumper sticker, and guess what, it win elections. And 
that is unfortunate, and that is how we got in the 
circumstances we are in today.
    Applied research in short takes a data-driven approach to 
corrections. It determines this particular offender, what 
classification should they be classified in with regard to 
their sentencing guidelines? Are they perhaps eligible for, due 
to their background, due to their education level, due to the 
circumstances of their act, are they eligible perhaps for 
community corrections instead of incarceration?
    The data-sharing actually goes on throughout all the 
correctional facilities in Alabama. Therefore, it is a broad-
based view of each individual inmate to determine what level of 
incarceration is maybe more appropriate and is an alternative 
sentencing program possibly better for this inmate. That is how 
it works in Alabama, and I think that is a big part of the 
Justice Reinvestment Initiative as well, and that is what they 
try to promote, is instead of policy or a debate by your heart, 
it is more about data driven through your head as to what is 
more logical.
    Mr. Scott. And you and Mr. Wetzel talked about the triage 
going in, assessing people. How does that work if you are 
saddled with mandatory minimums and no parole?
    Mr. Ward. And I have to tell you, I think the notion of--
that is one of the problems how we got where we are--the no 
parole, particularly for the nonviolent offenders. You have to 
look at a change in your parole policies. In Alabama, for 
example, we have 53,000 offenders currently under the 
supervision of our Boards of Pardon and Parole today. That is 
actually 200 offenders per individual caseworker. The national 
average is 75 offenders per caseworker. The no-parole notion 
for nonviolent offenders particularly, it just doesn't work. In 
my opinion, that is one part of the broken system we are in 
today.
    Mr. Scott. Now, what effect does overcrowding have on the 
effectiveness of job training and education programs in the 
prison?
    Mr. Ward. It has a huge impact because what has happened 
is, as society has looked around and States are having 
shortfalls in all their budgets, what has happened is, as we 
have had to cut back on K through 12, it is very hard to go 
back home and sell politically, well, but we have got to invest 
more in prison education. The overcrowding problem, what it has 
created is, you have so many inmates that you actually don't 
have, one, the physical plant facilities to provide the 
education, skill opportunities they need. But, two, it has 
created a situation where you are spending so much money on the 
actual incarceration, the feeding, and the health care, that 
the education component is being left aside, and that, in my 
opinion, is what leads to a higher recidivism rate as well.
    Mr. Scott. Thank you.
    Ms. La Vigne, you had mentioned reinvesting the savings in 
some of these programs. One of the problems and challenges is 
the people saving the money aren't the people making the 
investment. And so you make the investment and then somebody 
else saves the money. How do you recapture the savings in that 
scenario?
    Ms. La Vigne. That is a tremendous challenge, I think, that 
the States are experiencing, and many of them are handling that 
by actually engaging in what we call up-front reinvestment, so 
that at the point of passing legislation where they know that 
their projections show that the policy changes will yield 
meaningful reductions in populations and thus yield savings, at 
that very same time they will say, let's right now use those 
anticipated savings and dedicate them to activities like 
treatment, diversion programs, more supervision, et cetera.
    Mr. Scott. You mentioned front end, kind of dual front end, 
one, front end after conviction but also the very early primary 
prevention and early intervention. How do you recapture those 
savings?
    Ms. La Vigne. So capturing savings from very, very early 
prevention efforts is very difficult to do, and it is not 
usually something we discuss when we talk about justice 
reinvestment because justice reinvestment is largely about 
averting growth or reducing the prison population, yielding 
savings that way. I am not aware of people who have actually 
looked at early prevention programs and looked at how cost 
beneficial they are, but we at the Urban Institute have looked 
at various recidivism reduction programs and have found that 
several of them are, indeed, cost beneficial.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. I Thank the Chairman.
    And thank you all for being here. It is a very important 
topic. It is something that literally affects millions of 
people and yet doesn't always rise to the tier one level that 
it should. I believe it is one of the core things that 
government should and has to be involved with. So your 
expertise and your participation here today, we certainly do 
appreciate it.
    Mr. Chairman, I ask unanimous consent to enter into the 
record two articles. One is by Mr. Newt Gingrich and Pat Nolan, 
``An Opening for Bipartisanship on Prison Reform,'' as well as 
a Salt Lake Tribune op-ed, ``A Better Way Than Filling Jails 
with Nonviolent Offenders,'' by Kirk Jowers, that was published 
on July 13.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Chaffetz. Mr. Madden, I would like you to talk a little 
bit about--and then Mr. Wetzel if we could--about risk 
assessments. Do they really work? I mean, you have somebody who 
has come into prison. Can you very quickly go through this 
assessment process? How does it work? What is your experience 
with it? And how do we make the most of it?
    Mr. Madden. They actually work--they can work very well if 
you use the right ones. There are a lot of risk assessment 
tools that are out there. I always say to everybody, I am not 
sponsoring any one risk assessment tool because there are a 
whole a lot of different ones, but to come down at least on one 
that you are consistent with in your State and use that, and it 
is a great tool.
    Now, that is the one thing. There were two things that now 
happen in justice reinvestment actions throughout the States 
that we really didn't put in, in Texas, to start with because 
we were two legislators that were wandering, so to speak, in 
the dark. We didn't have the Pew people. We didn't have the 
Council of State Governments like all these guys had. We were 
just us doing what we thought was the best thing in the 
criminal justice system.
    We did not do the risk assessment thing, and it has been 
put in later, in later legislative sessions than what we 
started in 2007, but it is one of the two things that I tell 
the States that they all need to have and they all need to do, 
is have a risk assessment tool. They really do work. And you 
should use it as often in the cycle as is really fiscally 
responsible. You should do it when a person is first arrested, 
when they go before the judge the first time, when they go to 
probation, et cetera, et cetera, and in the prison system, too.
    Mr. Chaffetz. Thank you. I want to get to Mr. Wetzel, 
please.
    Mr. Madden. I was going to say in the prison system in 
particular, you could do it when they first come, and you 
should do it in subsequent periods of time while they are 
there. And there is two things on risk assessment----
    Mr. Chaffetz. Hold that thought for a second. I do want to 
follow up with you, but I am going to run out of time if I 
don't allow Mr. Wetzel to jump in.
    Mr. Madden. I understand.
    Mr. Wetzel. Yeah, absolutely. Sometimes the notion of risk 
assessment, people act like it is a new thing, but I am pretty 
sure an 18-year old young man pays higher car insurance than my 
82-year-old mom who drives a VW bug, right? Why? Actuary risk 
assessment.
    Mr. Chaffetz. You got an 82-year-old mother who drives a VW 
bug, really?
    Mr. Wetzel. I do. I do. Slowly.
    Mr. Chaffetz. With you in it? I would like to see that. All 
right. Keep going.
    Mr. Wetzel. So risk assessment has been around forever. 
Applying it to this and having an understanding of who comes in 
your system, every system does that. Every system does 
something when someone comes in.
    Mr. Chaffetz. All right. But what works and what doesn't 
work?
    Mr. Wetzel. What works is actuarial risk assessment, so it 
is research-based, and it identifies both the risks that the 
individual presents and also their needs. And then the rub, 
though, is that you have programming that addresses those 
needs, especially the criminogenic needs that are able to be 
impacted, like addiction, criminal thinking, those kinds of 
things.
    Mr. Chaffetz. Thank you. I have introduced, and many of the 
Members here on this panel have helped cosponsor a bill, H.R. 
2656, the ``Public Safety Enhancement Act of 2013.'' I do think 
it is time for Congress to take a much more proactive role in 
pushing the Bureau of Prisons in this direction. I appreciate 
panel members on both sides of this aisle in helping that. 
Perhaps as a follow-up, if you all could look at this 
legislation and help us get your feedback, we would certainly 
appreciate it.
    [The bill, H.R. 2656, follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Madden. I already have, obviously, with Senator Cornyn 
as a sponsor, has also talked a little about what we did in 
Texas. Let me analyze one thing on the risk assessment since 
you have got 30 seconds left.
    Mr. Chaffetz. Sure.
    Mr. Madden. The risk assessment, there are two different 
types of risk you have: the risk of the people redoing the same 
crime that they did and the risk of violent offenses. And you 
need to make sure your risk analysis truly analyzes the 
differences between the two because a lot of your prisoners are 
low risk of violent crimes but high risk of doing the dumb 
thing that got them to prison the first time.
    Mr. Chaffetz. Thank you. Yield back.
    Mr. Sensenbrenner. Time of the gentleman has expired.
    Gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. I just want 
the record to show that this is the most informative and 
thoughtful panel on this subject that I have heard in a long, 
long time. And I thing you and Ranking Member Bobby Scott 
should be congratulated on putting this together.
    And, you know, I am beginning to feel like there are more 
Republicans like yourself, Senator Ward, that are thinking 
about this. It is a wonderful thing. And what I wanted to start 
off by asking Dr. La Vigne is, how would we prioritize these 
legislative recommendations? I am going to get copies of this 
discussion here today because I think it needs to be shown 
around the country, not just to the people that are looking at 
it now or reading about it later. Where do we start? How do we 
get this thing on the road?
    Ms. La Vigne. Right. I wouldn't recommend any one piece of 
legislation over another, but I will emphasize our conclusion 
in our report, and that is that you really need more than one. 
You cannot achieve meaningful reductions in the Federal prison 
population looking only at, for example, earned release or 
other back-end measures.
    The reason is because, as we have mentioned already, the 
degree of overcrowding is so great. It is so great that you 
really need to do a lot of different things to achieve 
reductions. So what we conclude is that it really needs to be a 
combination of both back-end and front-end reforms.
    Mr. Conyers. Would you, Senator, like to add anything on to 
this discussion?
    Mr. Ward. Real briefly, Congressman, what I would say is 
this. It is going to take some political courage more than 
anything else. I mean, the tools and the data that you have 
heard here today from my esteemed colleagues on this panel, I 
mean, we have experts from all over the country that can tell 
you some of the road maps. The problem we have--and let's face 
it, I am from the reddest of red States, I am almost as red as 
Utah, I mean, we are a very Republican, conservative State--but 
at the end of the day what we have to realize is the level of 
incarceration spending that we are doing now, the conditions of 
the facilities that we are doing and what we are expecting as 
far as what comes out on the back end, is not sustainable. It 
can't be sustained by our current fiscal policies in State 
government. It can't be sustained by what we would consider 
adequate conditions under the Eighth Amendment.
    The data is there. We don't have to reinvent the wheel of 
the States. They have already been done. But we have to have 
the political courage to say, this is broken, we have to fix 
it. Whether you are from a red state, blue state, purple state, 
we all agree there is a broken system, and this is one area 
that I think we can all agree on how to fix it because the 
tools are out there.
    Mr. Conyers. Well, are there more conservatives coming 
around to this point of view being expressed here in the 
Judiciary Committee?
    Mr. Ward. Absolutely. I think there are people here on 
Capitol Hill that have expressed on several occasions, both in 
the Republican Party and Democrat Party, that it is one issue 
we can work together on. And I think in State government we 
realize, too, as a conservative, I want to see a much more 
efficient way of government being operated. But you can't run 
an efficient government the way we are doing it right now with 
corrections. So, yeah, I think there are.
    Mr. Madden. May I take a shot at that, too?
    Mr. Conyers. Please do.
    Mr. Madden. Since I am with the Right on Crime people, the 
Texas Public Policy, and it is the national conservative voice 
that is speaking out on this, I will say that when we first did 
all these things and we had Pew conferences, the things that we 
basically got out of that from the States that did the reforms, 
and that is people like Georgia and Kentucky and North 
Carolina, those States basically said go as much as you can, 
get all the areas that we are talking about.
    So the legislation that is out there now, whether that be--
I have noticed the sponsors on both Senate and House 
legislation have been both conservative Republicans and liberal 
Democrats, and they are mixed on the bills. That is a great 
sign, and I would highly encourage continuing because that is 
the opportunities there that we have found in the States, and 
the great thing was that most of those pieces of legislation 
were passed almost unanimously and almost with total bipartisan 
support.
    Mr. Conyers. We have a Congressional Black Caucus 
conference coming up in September, and I think three or more of 
our colleagues who are on Judiciary Committee would welcome a 
panel with any of you that can be there with us to help get 
this word out.
    Mr. Sensenbrenner. If the gentleman will yield, I would 
just urge you not to be afraid of the Congressional Black 
Caucus because I have been and talked to them and I am still 
here.
    Mr. Conyers. Well, yeah, but you are one of those 
exceptional conservatives that I was bragging about along with 
Senator Ward. We are looking for more Sensenbrenners, more 
Wards. And we want to come together and make this real and not 
just a sensational hearing on August 15.
    Mr. Sensenbrenner. I will say the gentleman's time has 
expired. Before people on the other side start criticizing me, 
the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Madden, who in the Federal system do you think is 
incarcerated because we are mad at them as opposed to being 
afraid of them.
    Mr. Madden. Sure. When we discussed that on mad versus 
afraid, the ones that we are afraid of are clearly the people 
who would do us a great deal of harm, and that is murderers and 
rapists and, yes, major drug dealers. I think we have some in 
the Federal system.
    Mr. Gowdy. Well, you know there are going to be very few 
people in Federal prison because of rape or murder----
    Mr. Madden. That is true.
    Mr. Gowdy [continuing]. Because most of them are in State 
prison. So who in Federal prison is there because we are just 
mad at them?
    Mr. Madden. I would say that those people who are actually 
drug users are probably those we are mad at.
    Mr. Gowdy. Well, now, Chairman, there is nobody in Federal 
prison for using drugs. They may be there for possession with 
intent to distribute, they may be there for conspiracy, but 
they are not there for using drugs. So I ask you again, who is 
in Federal prison because we are mad at them, not because we 
are afraid of them?
    Mr. Madden. The nice thing is my studies that I had, 
Representative, was that I don't portray myself as an expert on 
other systems that they have. What I do have is I do have the 
knowledge of what other States have looked at and the data that 
they have looked into. I agree with you, though----
    Mr. Gowdy. Well, Mr. Chairman, I am not the one that said 
it.
    Mr. Madden. I understand.
    Mr. Gowdy. I didn't write that people are in Federal prison 
because we are mad at them and not afraid of them. That was you 
that said that.
    Mr. Madden. I think I wrote that we have people in the 
prisons that we are mad at and afraid of, and that was distance 
that use, particularly in the States and our discussions there.
    Mr. Gowdy. Well, that necessarily assumes that the only 
reason to send someone to prison is because we are afraid of 
them, and I would argue that there are lots of other reasons to 
send people to prison other than the fact that we are afraid of 
them, like maybe the fact they didn't learn when we gave them 
probation. Maybe they didn't learn when we put them through a 
diversion program.
    Mr. Madden. One of the things that we look at the Texas 
Public Policy Foundation and Right on Crime is 
overcriminalization and things that are made criminal law, that 
basically we look at the things like mens rea provisions. And, 
again, I am not a lawyer, so I am speaking in terms as the 
gentleman who says there are things that we make as 
overcriminalization, and we have specifically talked about 
that. I know there have been hearings up here about----
    Mr. Gowdy. There have been.
    Dr. La Vigne, let me ask you to help me understand a phrase 
that sometimes I struggle to understand, which is nonviolent 
offender.
    Ms. La Vigne. Right. This was a challenge in our report 
because we lacked the data that we really needed to see what 
the criminal histories were of the people in the Federal 
system.
    Mr. Gowdy. Well, give me a for instance of a nonviolent 
offender.
    Ms. La Vigne. So what we did instead was to use security 
level, so those housed in low security Federal facilities we 
assumed were nonviolent.
    Mr. Gowdy. Did you look at the incident report?
    Ms. La Vigne. I am sorry, the what report?
    Mr. Gowdy. Did you talk to the victim? I am trying to get 
an idea, because I have heard multiple witnesses use the phrase 
nonviolent offender.
    Ms. La Vigne. This is a really good question and one that 
we would very much like to answer if we can get the right data 
from the Bureau of Prisons.
    Mr. Gowdy. Well, here is the challenge. And I readily 
agree, at least 80 percent of the crime I saw was drug and 
alcohol fueled. The difficulty we ran into when we tried to put 
a defendant in a nonviolent fact pattern into drug court, his 
or her defense attorney objected because it was much easier to 
just go straight probation than go to drug court. So how do you 
make someone post-adjudication go to drug court?
    Ms. La Vigne. I don't have that answer.
    Mr. Gowdy. Well, look, I am with you. Drugs and alcohol 
drive 80 percent of the crime. And I am not suggesting other 
people don't have the victim's perspective, but I am much more 
interested in the victim's perspective than I am the inmate's 
perspective. But when you have a defense attorney advising 
people to go straight probation even though they are an addict 
because that is easier than going through drug court, I don't 
know what you expect the State to do about that.
    Mr. Ward. Congressman, I would say you incentivize it. I 
would say you make it more attractive. And I think everybody up 
here agrees the victim's rights should always come in front of 
the inmate's. We all agree on that.
    Mr. Gowdy. Well, how do you incentivize it other than 
shortening the term of incarceration?
    Mr. Ward. Well, what you do, for example, if you have a 
choice of post-incarceration of probation or drug court, make 
it more attractive to go there. And I don't know the answer how 
you make I think more attractive. Make it more attractive. 
Maybe shorten the term of the probation, maybe lighten the 
terms of the probation to incentivize them.
    Mr. Gowdy. But that is post-adjudication. That is not a 
diversion program.
    Mr. Ward. Well, then do it ahead of time. Do it on the 
front end as well. You could do it on the front end as well. I 
mean, there are ways to incentivize it to make it attractive as 
opposed to what the alternative is, and that is how you get 
around the defense attorney's argument.
    Mr. Gowdy. Well, regrettably, I am out of time, Mr. 
Chairman.
    Mr. Sensenbrenner. The gentlewoman from California, Ms. 
Bass.
    Ms. Bass. Thank you very much, Mr. Chair, for holding this 
hearing, and also to the Ranking Member.
    You know, like my colleague, I also have the victim's 
perspective in mind, and one of the things that has happened 
over the years as the incarceration rates have been so high is 
that we have not really thought about when we release people in 
a lot of instances around our country you have a tremendous 
number of people who are released to certain communities. And 
then they have no options. Because of collateral consequences, 
they don't have an opportunity to work in the legal economy and 
they go right back and commit crimes. So having an 
overconcentration of people coming out of prison to particular 
communities then revictimizes those communities.
    And so what I wanted to ask you about, because you talked 
about evidence-based programs--I come from California, by the 
way, so you know we are really struggling with this and the 
courts have required us to release people. So one of the issues 
that we are dealing with is that when people get out, how do 
you then reintegrate them into a community so that they have 
other options? So I wanted to ask you if there has been 
research about reentry programs that help people navigate their 
way so that they don't wind up incarcerated again. And then, 
which collateral consequences do you feel we should eliminate 
at the Federal level?
    Ms. La Vigne. Okay. Yes, there is ample research on ways 
that people can be prepared for successful reintegration. A lot 
of that research is actually embodied in the What Works in 
Reentry Clearinghouse. It is something that the Urban Institute 
developed in partnership with the Council of State Governments, 
funded by the Second Chance Act. And what we strove to do was 
to identify only the most rigorous studies out there, because a 
lot of people point to studies that are effective or not, but 
then when you look at them you realize they are not really well 
conducted to begin with.
    So after screening out only the most rigorous studies, we 
then identified by different types of reentry mechanisms, say, 
enhanced education, employment, housing, treatment, what 
programs worked and for whom. And all of that is housed on a 
Web site that is searchable, and you will see that there is an 
ample body of research that suggests several things.
    One, reentry should really start at the point of 
incarceration. So you use the risk and needs assessment to 
identify what kind of programs and services and treatment that 
they need, make sure that they get them, and then also that you 
really need a very good transition from prison to the 
community. So you don't just release them and say, good luck. 
You release them and you have that handoff to the community 
services and support.
    Ms. Bass. Right. That is one of the things that we are 
doing in California, unfortunately, is releasing, and some 
people who have been in solitary confinement forever getting 
released and going straight on the street with not a lot 
happening. So one of the phenomenons that is kind of happening 
in the Los Angeles area, and in LA, since we have 30 percent of 
the prison population who come out, one of the things that is 
happening is a number of formerly incarcerated individuals are 
starting their own little mom-and-pop nonprofits to essentially 
hand hold people. Some people who have been locked up too long 
don't even know how to use public transportation or do the 
basics.
    And so I am wondering, in your evidence-based research, do 
you have very small nonprofits that have been studied like 
this? And that is for anybody.
    Ms. La Vigne. I haven't found those in any of the very 
rigorous studies that we have looked at, but it stands to 
reason, and actually there is some anecdotal evidence to 
suggest that the best kind of support for returning citizens is 
that that comes from folks who have already experienced 
incarceration and can really relate and speak to them and help 
them and understand what their challenges are.
    Ms. Bass. And for the other panelists in my remaining time, 
do you see a difference with private prisons, people coming out 
of private prisons versus government-run prisons?
    Mr. Wetzel. Pennsylvania doesn't do private prisons.
    Mr. Ward. In Alabama, we spend so little on our 
incarceration rate that actually it costs us more to use 
private prisons. And from the data that we looked at around 
2006 when we actually did experiment with private prisons, 
there was absolutely no difference between the two facilities 
as far as the outcome-based results of the offenders released.
    Ms. Bass. Texas?
    Mr. Madden. Texas has some private prisons. The recidivism 
rate that you get from the private prisons, since they are 
generally there for our lower-level offenders, match pretty 
closely the State facilities that we have for low-level 
offenders. They are about the same.
    Ms. Bass. Okay. Thank you.
    Yield back my time.
    Mr. Sensenbrenner. The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Ward, and this applies to everybody on the panel as 
well, but the theme that runs throughout most of your testimony 
is the need of flexibility in our criminal justice system, 
alternatives to detention, individualized approaches to parole, 
treatment, and much else.
    I have a bill with Congressman Scott, it is called the 
Smarter Sentencing Act, which would give judges more 
flexibility to make individualized sentencing determinations. 
Can you address the issue of flexibility in sentencing in your 
State and the importance of an individualized approach in 
criminal justice more generally?
    Mr. Ward. Unfortunately in Alabama we had a situation where 
we had, and use the phrase too much flexibility, up until about 
2006. Basically I could go to one county and be sentenced to 
community corrections or probation, I could go to the next 
county over for the exact same crime, the exact same instance, 
and be sentenced to 10 years in prison.
    So what we did was we came up with a uniform voluntary set 
of guidelines. Those guidelines, again, were still ignored by 
some of the judges, taken on by other judges. These guidelines 
were created through a data-driven empirical analysis to look 
at the system.
    We now have presumptive guidelines in Alabama. The 
presumptive guidelines do give the judges flexibility, because 
there are certain circumstances when the judge says this person 
really belongs in community corrections, and they can show an 
exception to the presumptive guidelines in writing and say, 
this is why I believe this inmate should go to or this offender 
should go to community corrections.
    The flexibility is necessary because the moment you start 
putting everyone in a small box, you are hamstringing yourself 
and you are restricting the judicial right to determine 
individual case-by-case basis. And that is how alternative 
sentencing has really been successful, because drug courts are 
handled by judges who say we need an exception to this set of 
circumstances. So in my State, I think that is a very good 
thing and it has been very successful as well.
    Mr. Labrador. Excellent. And that is what we are trying to 
do here in the House of Representatives as well, is to give a 
little bit more flexibility within the guidelines to give the 
judges a little bit more flexibility.
    You also discussed the benefit of certain sentencing 
reduction programs, and I think these are all good ideas. But I 
am wondering why we don't get the sentences right in the first 
place, which sounds like that is what you were doing in 
Alabama.
    Mr. Ward. You are exactly right.
    Mr. Labrador. So according to a review of the Justice 
Department records of prisoners released since 1994, prisoners 
are more likely to recidivate the longer they stay in prison. 
And the reason why America has such a larger population of 
prisoners than Europe is that we imprison them so much longer. 
Given these facts, Ms.--is it La Vigne?
    Ms. La Vigne. La Vigne.
    Mr. Labrador. La Vigne. Shouldn't we have the goal at the 
outset of making sentences fit the crime and give judges the 
ability to avoid unnecessarily long sentences?
    Ms. La Vigne. Well, this is my own personal opinion, but I 
think that judicial discretion is kind of an interesting thing. 
When I was working many, many years ago in Texas for the 
Sentencing Commission, at the time judges had between 5 and 99 
years for first degree felonies. It was too much discretion. 
Everybody agreed with that. But in the Federal system you see 
restricted discretion because of mandatory minimums. And your 
bill, sir, to have mandatory minimums for certain types of drug 
offenders I think makes sense because it is not mandating that 
sentences be lower, it is just giving the judges a little bit 
more discretion.
    Mr. Labrador. Okay. Now, I just have a general question. I 
was a criminal defense attorney, so I don't dislike them as 
much as my good friend here to my left. But I always wondered 
why we don't have shorter sentences and harsher punishment. So 
have any of you considered what could we do at the State level 
or at the Federal level to make sure that the sentences, when 
you go to prison, you actually have harsh punishment?
    I will just give you an example. I went to talk to a junior 
high school class of Hispanic students, and one of the students 
kept looking at me. I was trying to explain to them why it was 
important to go to college and do all those things, and one of 
the kids just looked at me and says, hey, I have an uncle in 
prison, and he gets three meals a day and he has four walls and 
he gets fed, and he is enjoying, he is actually enjoying being 
in prison. That broke my heart to hear something like that.
    What could we do at the State level and at the Federal 
level to actually make prison a little bit more difficult so 
they are not thinking that they are actually on a vacation 
while they are there?
    Mr. Ward. Congressman, I was just going to say, first of 
all, these rehabilitation programs, forcing them to learn a 
skill, forcing them to work while they are in there, not only 
does it make the sentence harsher, but also makes them more 
productive when eventually they do get released, and 95 percent 
do get released. And as your colleague to your left said, the 
crimes that occur in State prisons or what got you to the State 
prison are very different from what got you into, say, a 
Federal prison. We have a lot more violent offenders. So you 
have got to give them those skills, make them work harder. And 
while they are working, they are learning a skill while they 
are incarcerated.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you for 
calling the hearing.
    Senator Ward, and you mentioned the political will and the 
political courage to get it done, and my colleague, Mr. 
Chaffetz, entered into the record the Newt Gingrich article. 
The disappointing part about it is that the article was written 
in 2011 calling for all of us to come together. And I think 
that you see mutual ideas here and in fact that many of us are 
on the same page, but it is 2014 and we are still on step one.
    So part of the question is, how we move it forward without 
people who are afraid of it being branded, I guess, soft on 
crime, and I just think it is something we have to do.
    Let me ask you, I am going to give you a figure and then I 
want you all to give me your estimate. And I am not going to 
hold you to it, but right feel for you. With the Federal 
prisons, what a good time credit would be. We give about 54 
days a year. For every 7 additional days that we would give, we 
would save about $200 million over 5 years, about $30 million a 
year.
    In my State of Louisiana, we went in and doubled good time 
under a Republican governor, a Republican legislature, because 
we saw it made sense. And all of our Southern States are kind 
of moving in that trend.
    If you just had to throw out a number of how many days of 
earned good time you think you can absorb without making the 
public less safe, if you had to throw out a number, what would 
you throw out, or a range?
    Mr. Ward. I would say in Alabama you could probably add 10 
additional days. That would be the general consensus. Again, I 
am speaking off the cuff, 10 additional days from what we would 
do now. But we would still be below what Louisiana's average 
is.
    Mr. Scott. Ten days for what?
    Mr. Ward. I am sorry? Ten additional days from what we do 
now, which I believe is 54.
    Mr. Richmond. We are 54 in the Feds. And while Mr. Wetzel 
answers, I will look and quickly glance and see what Alabama is 
at.
    Mr. Wetzel. We are not a good time State, and so that is 
not really how we relate to the world. We really try to 
introduce risk assessment at sentencing, so make a good 
decision. So everybody knows at the sentencing time how much 
time at minimum the individual is going to serve. And then to 
the extent you can individualize decisions and make good 
decisions at who can get out earlier, I think that is what 
makes sense in our context.
    Mr. Richmond. Well, I think it still incentivize behavior 
that will----
    Mr. Wetzel. I am not disagreeing with that.
    Mr. Richmond. Right, that will reduce your sentence.
    Mr. Wetzel. I don't have a point of reference to throw a 
number out to you.
    Mr. Richmond. Okay.
    Mr. Madden. It was interesting. I was over in your State of 
Louisiana before their legislature this last session on several 
bills that they were doing, that they have done, and a couple 
that they didn't do dealing with the powers of individuals in 
your State. But a couple of recommendations that are there. We 
have a parole board that looks, we are probably more of a good 
time State than John's is, but we are not a good time State 
either when it comes to incarceration, but what you can look at 
is what are you doing with your parole and your parole actions 
that you have in putting people or releasing them, what amounts 
to release time.
    One of the things we actually did in our looks was we had 
the parole board that was saying, this person is eligible for 
parole, all they have to do is have this drug treatment 
program, this 18-month drug treatment program. The problem we 
had in Texas when we did this is there was a waiting period for 
that drug program of over a year, people just sitting there. 
Before they started an 18-month program, they were sitting 
there and waiting for over a year.
    This is the great thing as an engineer who could sit there 
and think about studies of queuing theory and how much did we 
spend on just keeping those people to wait for a program that 
they needed and then were eligible for release. We saved a lot 
of money by putting in additional drug treatment facilities in 
the prisons, so we shortened that waiting time substantially. 
And those are the kinds of things you can look at doing.
    Mr. Richmond. Have any of you all enacted reentry courts? I 
passed a reentry court bill a couple years ago, and now it is 
coming full circle, and we have just run some awards in 
Louisiana which would allow the judge to sentence a person to--
and actually, they send them to Angola, which is our State 
penitentiary, with a range of between zero and 10 years. But 
after completing programs and going through training, at some 
point the warden will declare that they are not a risk to 
society and the warden then has the ability to petition for 
their release.
    And that has been a very effective model in getting people 
actually treatment, skills, workforce development, and all of 
those other things to put them back on the streets in an area 
where our recidivism rate with those offenders are very, very 
low, even though they are going to our State penitentiary.
    Mr. Ward. That has been a political debate with our State 
prosecutors, although I think it is an idea a lot of them are 
warming up to now. But, yes, we have looked at that. 
Legislation 3 years ago to do that failed in Alabama; however, 
I think there is a lot more support now for that than there 
used to be due to the crisis we are in.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Mr. Chairman, I, first of all, want to thank 
you and the Ranking Member for holding this hearing. I think it 
is a very important topic.
    And thank all of you for being here. I apologize. I have 
been in an Armed Services hearing that was in conflict. And I 
hope I am not asking you a question that you have already 
addressed, but I was wondering if you could give me your 
thoughts on the mental health aspects and how we are assessing 
individuals when they come into the system, what you view in 
terms of our treatment capabilities, and any recommendations 
you might have along those lines, to any of you that would feel 
that you could offer some suggestions.
    Mr. Wetzel. In Pennsylvania, 21 percent of our population 
is on the mental health roster, which equates to about 10,000 
people, which means that I am responsible for the delivery of 
mental health services for more individuals than any other one 
entity in the State. And I think that is pretty consistent 
around the country.
    Mr. Madden. It is.
    Mr. Wetzel. And when you talk about a challenging group, a 
group that requires, first of all, good assessment, to include 
a full psych workup, which means resources and time.
    Mr. Forbes. Do you feel you are getting that now?
    Mr. Wetzel. Excuse me?
    Mr. Forbes. Do you feel you are getting that kind of 
assessment?
    Mr. Wetzel. Yeah, we do. And we have bolstered that. I 
mean, we have come up short on some of the back-end stuff, in 
other words, keeping folks healthy in general population. And 
what we have seen around the country, and Pennsylvania in 
particular, was people not getting sick from a mental health 
standpoint and then ending up in segregation. And so sometimes 
when you put mentally ill offenders in an intensive environment 
that prisons are, it is not the most therapeutic environment in 
all cases. So it is certainly a challenging thing.
    So I think assessment at the front end, individualizing a 
treatment plan for each individual, splitting out the seriously 
mentally ill, which is anywhere between 7 and 10 percent of our 
population, and putting them on a completely separate track, so 
creating safe environments in general population.
    And then for reentry for that group in particular, there 
has to be a lot of coordination between the prison system and 
the community infrastructure, to include case management and 
the treatment providers, because we have places in rural 
Pennsylvania where you are waiting 2 or 3 months to get an 
appointment with a psychiatrist. We are releasing a mentally 
ill offender with 30 days of medication. Oops. What happens in 
that 30 or 45 days that individual doesn't have medication, and 
it is not good. So I think it is a very challenging group.
    I think that there needs to be as much attention on 
creating a community safety net so mentally ill folks are less 
likely to come to prison in the first place. People get 
concerned that corrections isn't going to adjust and be able to 
deal with mentally ill offenders. I am concerned that we are 
going to be able to adjust, and I am not sure that is the right 
thing from a public policy standpoint.
    Mr. Ward. Congressman, I would say, too, one big issue, and 
this is the distinction between the Federal and the State 
level, is how do you define mental health problems? The Bureau 
of Justice Statistics says that 56 percent of all State inmates 
have a mental health problem; however, if you look at the 
definition of mental health problem on the Federal level, that 
number shrinks dramatically. I have a child, for example, on 
the autism spectrum. They would not be considered mental 
health. There are those out there who are coming back from war 
with post-traumatic stress syndrome. They would not be 
considered for these purposes mental health.
    So I think how we define mental health is going to go a 
long way to how we prevent or give the proper treatment for 
those who have already been incarcerated or to prevent them 
from becoming incarcerated in the first place.
    Mr. Forbes. Good. Anybody else?
    Ms. La Vigne. What I would add to this conversation is the 
intersection between people with substance addiction and mental 
health problems, and those are often co-occurring disorders. 
And looking at the Federal system and the large volume of drug 
offenders who are in the system, that could be an issue that 
you will want to explore.
    Mr. Forbes. Good. Well, thank you all so much for doing 
that.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Sensenbrenner. The gentleman yields back. The Chair 
recognizes himself to wrap up.
    I think the best thing that we can do in the remaining days 
of this Congress is to reauthorize the Second Chance Act. That 
has been very useful. The gentleman from Virginia and I have 
been pushing this. It took a couple years to get it passed the 
first time, and I think that we ought to get it reauthorized 
and at minimum tweaked so that it is more effective.
    What I am looking at in the whole continuum of somebody who 
gets involved in the criminal justice system is we start out 
with the arrest, then we have decisions that have to be made by 
the prosecutor and defense counsel, there is a trial, there is 
a conviction, then there is an investigation by a probation or 
parole department pre-sentencing to advise the court on what 
the proper sentence would be. Then there is incarceration and 
what goes on during incarceration and then what goes on after 
release. So there is a huge continuum of various groups of 
people, often with conflicting interests, who put their oar in 
the waters in dealing with the individual who has run afoul of 
the law.
    My concern in dealing with this is that there is an awful 
lot of bureaucratic inertia or the bureaucracy trying to save 
their jobs by saying that they have a larger casework than is 
really necessary, and it was a result of putting more notches 
on the report that goes up to the boss. We end up not treating 
those people as humans with special needs.
    Now, some of them might require incarceration, particularly 
if they are involved in violent crime or drug trafficking. We 
have talked about mental health issues, and then we have talked 
about what goes on in prison and how they are supervised if 
they are released on probation.
    How do we manage to lick the bureaucratic inertia that keep 
things the way they are because people have jobs and they want 
to keep their jobs and they are afraid of losing them if there 
are changes? And I would like to ask you, Secretary Wetzel, to 
start out with this, because you are the chief of a bunch of 
public employees in the Commonwealth of Pennsylvania who work 
in the corrections system there.
    Mr. Wetzel. Yeah. I think it is really important to pay 
attention to the process, and I think oftentimes we set up 
processes that incentivize the wrong thing. So you alluded to a 
situation where someone really could benefit or an agency could 
really benefit by not necessarily making the best decision and 
control caseloads from that manner. So I think it is very 
important that we look what we incentivize and we look at how 
the system works.
    And Pennsylvania is a place where we looked, and we had 
2,400 inmates every month come up who were eligible for a 
parole hearing. The parole board had the capacity for 1,800 a 
month, right? So every month we have 600 offenders.
    But here is the rub and here is what we were doing poorly. 
We weren't being deliberate about who got skipped. So if I was 
an individual who was not following any rules, didn't do any 
programs, was in trouble constantly and was in disciplinary, 
and you were an individual who has done everything we have 
asked you to do, we were equally likely to get skipped. If I 
get skipped, it costs me nothing, because I wasn't getting out 
anyhow. If you get skipped, it costs us from a standpoint that 
you were likely to get paroled, so it is going to cost us real 
money.
    But beyond that, what message are we sending? If we are 
saying we are a justice system, you have done everything we 
have asked you to do, and now because of our bureaucracy or 
incompetence, however you want to describe it, you are not 
getting a hearing. So I think it is those kinds of things, 
really looking at how the system is structured and making sure 
it is structured in a manner that we are delivering what we 
need to do and making just smart, commonsense decisions, I 
think we can get where we need to get to.
    Mr. Sensenbrenner. Okay. I have 45 seconds left, so, 
Senator Ward, you are the incumbent policymaker. How can you 
answer my question?
    Mr. Ward. One of the biggest areas I have noticed is, is a 
disparity in how court cases are actually counted. We had a 
situation in Alabama where one southern county counted each 
charge filed as a ``caseload.'' And in my particular county, 
Shelby County, those five same charges that were filed down 
there are considered one case load for purposes of statistics. 
We have to make sure we have accurate data with regard to 
caseloads.
    Second, he is absolutely right, the secretary is right. You 
have got to incentivize the idea of, how can I get your 
caseload down, how do we incentivize you to have a lower 
caseload? If we can come up with that solution, I think it 
encourages your judges and your prosecutors to pursue the 
alternative sentencing programs.
    Mr. Sensenbrenner. Thank you very much. My time has 
expired.
    I would like to thank all of the witnesses. This has been a 
very interesting and fascinating hearing. And it is something 
that is really necessary in terms of not only trying to reduce 
our prison population, but also trying to reduce the recidivism 
rate. And I think there is a public interest in both, but the 
greater public interest is reducing the recidivism rate, 
because somebody who gets out and re-offends is going to cause 
a whole different group of victims. And if we want to protect 
those victims from being victimized, the thing to do is to 
convince the person who gets out not to continue in a life of 
crime.
    Does the gentleman from Virginia have some unanimous 
consent requests?
    Mr. Scott. Yes, Mr. Chairman. I ask unanimous consent that 
two op-eds sponsored by Mr. Madden be entered. One is a public 
safety op-ed which outlined many of the things he said today, 
but also a very articulate article supporting the Youth Promise 
Act, which I enjoyed reading since I am the chief sponsor of 
that legislation. Also a letter and report from the ACLU, 
``Ending Mass Incarceration: Charting a New Justice 
Reinvestment,'' * and a report from the Justice Reinvestment 
Initiative, State assessment, from the Urban Institute.**
---------------------------------------------------------------------------
    *The material titled, ``Ending Mass Incarceration, Charting a New 
Justice Reinvestment,'' is not reprinted in this hearing record but is 
on file with the Subcommittee and can be accessed at http://
www.google.com/
url?sa=t&rct=j&q=&esrc=s&source=web&cd=1&ved=0CCAQFjAA&url=
http%3A%2F%2Fsentencingproject.org%2Fdoc%2Fpublications%2Fsen--
Charting%2520a%2520
New%2520Justice%2520Reinvestment.pdf&ei=bt1XVKavM4PasAS_rYH4Aw&usg=AFQjC
NHfR
k4zDod6rZWcwuLxW9TrCckr4Q&bvm=bv.78677474,d.cWc.
    **The material titled, ``Justice Reinvestment Initiative State 
Assessment Report,'' is not reprinted in this hearing record but is on 
file with the Subcommittee and can be accessed 
at www.urban.org/uploadedpdf/412994-Justice-Reinvestment-Initiative-
State-Assessment-Report.
pdf.
---------------------------------------------------------------------------
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________


    Mr. Sensenbrenner. If there is no further business to come 
before the Subcommittee, without objection, the Subcommittee 
stands adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
